Report No. D-2010-056                         May 4, 2010




                  U.S. European Command
                  Civilian Staffing Process
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 312-664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 312-664-9142), by fax (703) 604-8932, or by
mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AO                            Authorizing Official
CHRA-E                        Civilian Human Resources Agency - Europe Region
CPAC                          Civilian Personnel Advisory Center
DCPDS                         Defense Civilian Personnel Data System
EOD                           Entrance on Duty
RPA                           Request for Personnel Action
RPI                           Request for Preliminary Information
SDW                           Salary Determination Worksheet
USEUCOM                       U.S. European Command
                                INSPECTOR GENERAL 

                              DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DRIVE 

                            ARLINGTON , VIRGIN IA 22202-4704 




                                                                                 May 4, 2010

MEMORANDUM FOR COMMANDER, U.S. EUROPEAN COMMAND
               DIRECTOR, ARMY CIVILIAN HUMAN RESOURCES
                   AGENCY - EUROPE REGION

SUBJECT: 	 U.S . European Command Civi lian Staffing Process
           (Report No. D-20 I 0-056)

We are providing this report for your information and use. We performed this audit at the
request afthe Chief of Staff, U.S. European Command. We considered management
comments on a draft of this report when preparing the final report.

Comments on the draft of this report conformed to the requirements of DOD
Directive 7650.3 and left no unresolved issues. Therefore, we do not require any
additiona l comments.

We appreciate the courtesies extended to the staff. Please direct questions to
Mr. Donald A. Bloomer at (703) 604-8863 (DSN 3 12-664-8863).




                                            !2(J~J~
                                             A lice F. Carey
                                             Acting Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. D-2010-056 (Project No. D2009-D000JB-0109.000)                               May 4, 2010


              Results in Brief: U.S. European Command
              Civilian Staffing Process

                                                            Specifically, managers could view in DCPDS
What We Did                                                 how many days a hiring action had remained at
We performed the audit in response to a request             a particular step but had no way to know how
from the Chief of Staff, U.S. European                      long the step or the process should take.
Command (USEUCOM), to review the                            Efficient tracking was not possible because
USEUCOM civilian staffing rate in 2008.                     USEUCOM and the U.S. Army Civilian Human
                                                            Resources Agency - Europe Region (CHRA-E)
The objective was to determine whether                      have not defined the phases of the staffing
USEUCOM civilian staffing efforts provided                  process in the automated personnel system or
adequate support for the Command’s Operation                provided points of contact for steps in each
Enduring Freedom activities. To that end, we                phase.
reviewed the timeliness with which USEUCOM
hired civilians between October 2006 and                    What We Recommend
January 2009. We also reviewed USEUCOM                      To improve oversight of the staffing process, we
job vacancy announcements to determine                      recommend that the USEUCOM Commander
whether restrictions in them affected staffing              and the Director of the U.S. Army Civilian
levels. We examined the civilian staffing rate to           Human Resources Agency – Europe Region,
determine why it declined throughout 2008.                  jointly establish and publish a table showing:

The USEUCOM civilian staffing process is                       the phases in the DCPDS staffing process
managed by the hiring manager, the                              and the steps in each phase,
USEUCOM Manpower Personnel and                                 a single point of contact for the steps in each
Administration Directorate, and the U.S. Army                   phase, and
Civilian Personnel Advisory Center. The                        time frames for the completion of each step
Defense Civilian Personnel Data System                          in the staffing process.
(DCPDS) is an automated system that tracks
this process.
                                                            Management Comments and
What We Found                                               Our Response
We found that USEUCOM’s staffing process                    The comments of the USEUCOM Commander
did not impede the Command’s ability to                     and the Director, U.S. Army Civilian Human
support Operation Enduring Freedom activities.              Resources Agency – Europe Region, were
USEUCOM’s hiring of civilians was usually                   responsive to the recommendation. Please see
timely; the staffing process took an average of             the recommendations table on the back of this
87 business days. In addition, we did not                   page.
identify any restrictions in the position
announcements that affected the USEUCOM
staffing rate.

During the civilian staffing process, however,
USEUCOM managers could not efficiently
track the status of billets they were trying to fill.

                                                        i
Report No. D-2010-056 (Project No. D2009-D000JB-0109.000)        May 4, 2010


Recommendations Table


         Management                Recommendation Requires Additional
                                              Comment
Commander, U.S. European                         No
Command

Director, U.S. Army Civilian                       No
Human Resources Agency -
Europe Region




                                          ii
Table of Contents

Introduction                                                       1


      Objectives                                                   1

      Background                                                   1

      Guidance                                                     2

      Review of Internal Controls                                  2


Finding. Performance Management                                    3


      Recommendation, Management Comments, and Our Response        8


Appendices

      A. Scope and Methodology                                    10 

      B. U.S. European Command Civilian Staffing Process          11 


Management Comments

      U.S. European Command                                       14 

      U.S. Army Civilian Human Resources Agency - Europe Region   16 

THIS PAGE LEFT INTENTIONALLY BLANK

Introduction
Objectives
Our objective was to determine whether the U.S. European Command’s (USEUCOM’s)
civilian staffing efforts provided adequate staff to support the Command’s Operation
Enduring Freedom activities. Specifically, we reviewed the USEUCOM staffing actions
to determine whether they were performed in a timely manner. We also reviewed the
USEUCOM job vacancy announcements to determine whether restrictions in these
announcements affected staffing levels. For the scope and methodology of our review,
see Appendix A.

Background
We performed the audit in response to a request from the USEUCOM Chief of Staff to
review the USEUCOM civilian staffing rate in 2008. The USEUCOM civilian staffing
program is managed by the command’s Manpower, Personnel and Administration
Directorate at Patch Barracks in Stuttgart, Germany. This office provides oversight of
the employment process, administrative staffing actions, and employee performance.
Personnel with the U.S. Army Civilian Human Resources Agency - Europe Region’s
Civilian Personnel Advisory Center (CPAC) in Stuttgart also participate in the process.
During the scope of our review, USEUCOM filled 300 civilian positions.

U.S. European Command
USEUCOM is responsible for U.S. military activities in Europe and parts of the Middle
East. According to its mission statement, the Command seeks to conduct military
operations, develop and strengthen security and interagency relationships, support the
North Atlantic Treaty Organization, and build partner capacity to enhance transatlantic
security and defend the homeland forward. According to a USEUCOM March 2009
staffing report, the Command has 1,421 military members and 538 civilian employees.

Civilian Staffing Process
The civilian staffing process involves a series of steps that both USEUCOM and CPAC
complete. The USEUCOM organizations involved in the staffing process include the
organization requesting to hire a civilian; USEUCOM’s Manpower, Personnel and
Administration Directorate (which includes the offices of Civilian Personnel and
Manpower); and the Comptroller. The Defense Civilian Personnel Data System
(DCPDS) is an automated system that stores personnel information and is used in the
civilian staffing process. Once USEUCOM or CPAC completes a step in the staffing
process, DCPDS forwards a Request for Personnel Action (RPA) to the next responsible
party. For detailed information on the USEUCOM civilian staffing process, see
Appendix B.




                                            1

Guidance
We did not identify formal guidance applicable to the audit objectives. To determine
whether staffing was adequate to support USEUCOM’s Operation Enduring Freedom
activities, we reviewed the USEUCOM civilian staffing process for timeliness. To
determine whether the civilian hiring process was timely, we developed a reasonable time
frame for completing each step of the process and compared it with the actual completion
time for hiring actions.

Review of Internal Controls
We determined that internal controls over the civilian staffing process were generally
effective as they applied to the audit objective. However, implementing our
recommendation will improve managers’ ability to measure performance throughout the
civilian staffing process.




                                           2

Finding. Performance Management
Although the USEUCOM staffing process was usually timely, taking an average of 87
business days to fill a position, USEUCOM managers could not efficiently track specific
hiring actions and determine their status in the staffing process. Efficient tracking was
not possible because USEUCOM and the U.S. Army Civilian Human Resources Agency
- Europe Region (CHRA-E) have not defined the phases of the staffing process in the
automated personnel system or provided points of contact for steps in each phase.
USEUCOM and CHRA-E have also not established and published USEUCOM-specific
time frames for each phase. As a result, USEUCOM hiring managers may not be able to
provide adequate information to senior leaders to assist in their decision making.

Support of Operation Enduring Freedom Activities
To determine whether USEUCOM’s staffing process supported its Operation Enduring
Freedom activities, we reviewed the timeliness of staffing actions and determine whether
restrictions in the position announcement caused a drop in the staffing level identified in
2008. We found that the hiring actions were usually timely, and the staffing level
dropped due to an increase in the number of authorized billets. We did not identify any
restrictions in the position announcements that caused the staffing level to drop.

Timeliness
The civilian staffing process was usually timely and did not impede the USEUCOM’s
ability to support Operation Enduring Freedom activities. We found that the process took
an average of 87 business days, 41 days less than the auditor-developed estimated time
frame of 128 business days.

To determine whether the USEUCOM civilian staffing process was timely, we identified
10 key steps in the civilian staffing process in DCPDS. We then met with USEUCOM
and CPAC personnel responsible for the staffing process to develop a desired completion
time frame for each step. Representatives from both USEUCOM and CPAC agreed that
a reasonable amount of time to complete all of the steps to hire a civilian would be 128
days. Figure 1 lists the 10 steps along with the days seen as sufficient to accomplish
them.




                                             3

      Figure 1. Time Frames for Completing Steps in the Civilian Staffing Process
                        Key Steps                         Responsible Office   Business Days
1.    Initiate and authorize RPA                             USEUCOM                  7
2.    Process RPA                                            USEUCOM                 10
3.    Review classification                                  USEUCOM                  5
4.    Select required/desired skills and generate              CPAC                   5
      announcement
5.    Publish and hold open the announcement                    CPAC                10
6.    Compile referral list and forward to selecting            CPAC                10
      official
7.    Select candidate and return referral list to CPAC     USEUCOM                 22
8.    Process Request for Preliminary Information         USEUCOM/CPAC              13
      and Salary Determination Worksheet
9.    Issue tentative job offer and allow time for              CPAC                  6
      selectee to accept
10.   Finalize process for selectee’s EOD                 USEUCOM/CPAC              40
                                        Total                                      128
Using the total staffing process data we collected, we calculated the mean to be 87 days
with a standard deviation of 61 days; 128 days falls at the 79th percentile level, indicating
that 79 percent of the total staffing process values are less than 128 days.


U.S. European Command Civilian Staffing Rate in 2008
USEUCOM officials expressed concern about their civilian staffing rate. Specifically,
the officials were concerned that the rate was 20 percent lower than the military rate,
which was at 92 percent. Subsequently, USEUCOM officials requested a review of the
civilian staffing process.

Staffing Rate in 2008
The USEUCOM civilian staffing rate declined from 95 percent in January 2008 to
75 percent in December 2008. The decline was the result of an overall increase in
authorized billets from 327 to 538. Because filling a billet took about 87 business days,
the percentage of billets filled remained low while hiring was being completed.

Decrease in Staffing Levels
At the start of 2008, USEUCOM had 327 authorized civilian billets. By the end of the
year, the billets had increased by about 65 percent to 538, with significant increases in
March and from September through November. Figure 2 illustrates the concomitant
decrease in staffing levels.




                                                  4


                                                               Figure 2. 2008 Civilian Staffing Levels
                      600                                                                                                                                                                              100




                                                                                                                                                                                                             Percentage of Billets Filled
                      550                                                                                                                                                                              95
  Number of Billets


                      500                                                                                                                                                                              90
                                                                                                                                                                                                       85
                      450
                                                                                                                                                                                                       80
                      400
                                                                                                                                                                                                       75
                      350                                                                                                                                                                              70
                      300                                                                                                                                                                              65
                      250                                                                                                                                                                              60




                                                                                                                                                                            8
                                              8



                                                           8




                                                                                                                 8



                                                                                                                                8



                                                                                                                                               8




                                                                                                                                                                                         8
                                8




                                                                          8




                                                                                                    8




                                                                                                                                                           8
                                                                                       8




                                                                                                                                                                         -0
                                            -0



                                                         -0




                                                                                                               -0
                              -0




                                                                                                  -0
                                                                                     -0




                                                                                                                             -0



                                                                                                                                            -0




                                                                                                                                                                                      -0
                                                                       -0




                                                                                                                                                        -0



                                                                                                                                                                    ov
                            an




                                                                                                un



                                                                                                             ul
                                                       ar
                                          eb




                                                                                                                           ug



                                                                                                                                          ep
                                                                     pr



                                                                                   ay




                                                                                                                                                                                     ec
                                                                                                                                                        ct
                                                                                                           -J




                                                                                                                                                      -O
                                                      -M




                                                                                                                                                                  -N
                                                                  -A



                                                                                 -M




                                                                                                                                                                                   -D
                          -J



                                       -F




                                                                                              -J




                                                                                                                        -A



                                                                                                                                       -S
                                                                                                        31
                       31




                                                               30




                                                                                           30




                                                                                                                                                   31



                                                                                                                                                               30
                                    28



                                                   31




                                                                                                                     31



                                                                                                                                    30




                                                                                                                                                                                31
                                                                              31  Authoriz ed Billets        Civilian St affing Perc ent age




The billet increases in March, September, October, and November gave the appearance
that civilian staffing levels were a problem. Specifically, the 30 percent increase in
civilian billets in March and the 33 percent increase from August through November
caused the staffing levels to decline from more than 90 percent to around 75 percent.

Time to Fill Positions
The average time to fill a vacant position in USEUCOM was 87 business days. Figure 3
shows the increase in authorized billets and the slower, incremental increase in the
number of filled positions. If the 87-business-day average were factored into the number
of filled billets, the staffing rate would be higher. For example, the number of authorized
billets increased by 98 from January to March, causing the staffing rate to drop from
95 percent to 78 percent. If the 87-business-day time frame to fill a position was factored
in, these positions would be filled by September. Dividing the September filled billets by
the March authorized billets would result in a staffing level of about 90 percent.

                       Figure 3. 2008 Civilian Staffing Levels Compared With Authorized Billets
                      600
                      550
  Number of Billets




                      500
                      450
                      400
                      350
                      300
                      250
                                                                                                                                                                                       8
                                               8




                                                               8




                                                                                                                         8



                                                                                                                                        8



                                                                                                                                                        8




                                                                                                                                                                                                     8
                                8




                                                                              8




                                                                                                         8




                                                                                                                                                                     8
                                                                                           8




                                                                                                                                                                                    -0
                                             -0




                                                             -0




                                                                                                                       -0
                              -0




                                                                                                       -0
                                                                                         -0




                                                                                                                                     -0




                                                                                                                                                     -0




                                                                                                                                                                                                  -0
                                                                           -0




                                                                                                                                                                    -0



                                                                                                                                                                                 ov
                            an




                                                                                                     un




                                                                                                                     ul
                                                           ar
                                           eb




                                                                                                                                   ug



                                                                                                                                                   ep
                                                                                       ay
                                                                         pr




                                                                                                                                                                                                  ec
                                                                                                                                                                 ct
                                                                                                                   -J




                                                                                                                                                                -O
                                                        -M




                                                                                                                                                                               -N
                                                                      -A
                                        -F




                                                                                      -M




                                                                                                                                                                                                -D
                          -J




                                                                                                   -J




                                                                                                                                -A




                                                                                                                                                -S
                                                                                                                31
                       31




                                                                   30




                                                                                                30




                                                                                                                                                             31




                                                                                                                                                                            30
                                     28




                                                     31




                                                                                                                             31




                                                                                                                                             30




                                                                                                                                                                                             31
                                                                                   31




                                                                                                                Month

                                                                                               Filled Billets          Aut horiz ed Billet s



Restrictions
There were 300 USEUCOM civilian hiring actions identified during the period covered
by the audit, and 62 of those actions took longer than the expected time frame provided


                                                                                                        5
by USEUCOM and CPAC management. We reviewed these actions to determine
whether the announcements contained restrictions that may have hindered applicants
from applying for a position. Two potential restrictions arose from this review: term
positions and security clearances.

    		   Term Positions.* Of the 300 hiring actions reviewed, 73 (24.33 percent) were
          identified as term positions. However, only 29 (39.73 percent) of those positions
          were delayed. The delayed number of hiring actions associated with this
          restriction as a percentage of the total number of term position hiring actions is
          too low to be considered an interruption in the staffing process.

    		   Security Clearances. Of the 300 hiring actions reviewed, 11 (3.67 percent) were
          identified as requiring a security clearance. However, four (36.36 percent) of
          these positions were delayed. Although this percentage exceeds one-third of the
          hiring actions requiring a security clearance, this restriction should not be seen as
          negatively affecting the staffing process because the clearance specific to the
          position is in the interest of national security.

These restrictions did not appear to reduce the 2008 civilian staffing rate.

Tracking the Staffing Process
Although the process was usually timely, we identified improvements that could be made
in the staffing process to give DoD managers more visibility of their hiring actions.
While DCPDS currently provides the hiring managers information that shows the amount
of time a hiring action has been in a particular step, the managers lack a context to
evaluate this information against.

DCPDS is an automated system designed to improve the accuracy, responsiveness, and
usefulness of data required for civilian personnel management within DOD. USEUCOM
civilian hiring actions are processed through DCPDS, and the system maintains
information regarding the status of hiring actions. When one party in the process
completes a task, the system forwards the action to the next responsible party. DCPDS
tracks where an item is, how long it has been in the current phase, and whether it is
meeting Army standards for timeliness. Managers (and other users) of the system can
access this information at any point in the process. However, since USEUCOM and
CHRA-E did not identify what work is performed in each phase of the staffing process
and did not establish and publish USEUCOM-specific time frames for hiring actions,
managers and other users of DCPDS could not efficiently track hiring actions through the
process and determine their status. Without this information, USEUCOM managers may
not be able to provide senior leadership the information they need to make informed
decisions regarding staffing levels and requirements.




*
 DOD 1400.25-M defines a term position as an appointment that is for a specified period of time when the
need for an employee’s services is not permanent.


                                                   6

Definition of Phases
While DCPDS allows managers to see what phase of the staffing process their action is
currently in, the system offers no descriptions as to what each phase entails. Some phase
titles are self-explanatory; for example, “In-Class,” identifies positions that are currently
being classified.* However, other phase titles are vague and do not clearly reflect the
steps being performed. One example is “PRE-PERS.” According to CPAC officials, this
phase covers the steps USEUCOM performs before the hiring action arrives at CPAC,
including reviews by USEUCOM’s Civilian Personnel, Manpower, and Comptroller
offices. However, without definitions of these steps, managers may not be fully aware of
the steps that are covered in the “PRE-PERS” phase. With this information, the hiring
managers and other users of the system would be better informed and could more
effectively evaluate the progress of hiring actions.

Identification of Points of Contact
DCPDS identifies the e-mail address of the person responsible for the current phase of
the hiring action. In addition, it shows a history of the e-mail traffic for each action.
However, DCPDS does not link the e-mail address with specific steps in the staffing
process and does not indicate which office the person with that e-mail address works in.
Because of the number of e-mail addresses associated with a single action, managers may
have difficulty determining where their action is in the process. For example, in the
“PRE-PERS” phase, a hiring action may involve several USEUCOM offices, including
Civilian Personnel, Manpower, and Comptroller. Because the e-mail addresses in
DCPDS do not contain office identification, managers do not have a way to determine
who is currently working on their hiring action. Both USEUCOM and CPAC officials
have provided the hiring managers the names and numbers of all the people in their
offices who are part of the staffing process, but the contact information does not indicate
who is responsible for each step. If USEUCOM and CPAC establish a single point of
contact for each step within a phase, managers will have the contact information they
need to follow up on items of interest.

USEUCOM-Specific Time Frames
DCPDS does provide managers with the number of days an item has been in the current
phase, and indicates whether the hiring action is meeting Army standards for timeliness.
The Army has developed a color-coded system that indicates whether an item is within
desired time frames; however, the Army’s color-coded system does not necessarily
reflect how long hiring actions take for USEUCOM. For example, the final steps of the
staffing process fall under the DCPDS phase “Committed,” which includes the in-
processing that occurs after a candidate accepts a position. The Army color code is green
for days 0 through 6 of this phase. After 6 days it changes to yellow, and after 12 days,
to red. However, because of the additional time required to process a move to Europe,
the time frames identified in the color-coded system for this step are not useful for



*
 Position classification is a process through which Federal jobs (positions) are assigned to a pay system,
series, title, and grade or band, based on consistent application of position classification standards.


                                                     7


USEUCOM hiring actions. According to USEUCOM and CPAC officials, they have not
established acceptable time frames for USEUCOM hiring actions.

Conclusion
By defining the phases of the staffing process, providing complete point of contact
information for each phase, and establishing and publishing time frames for the
completion of each phase, USEUCOM and CHRA-E will be able to effectively monitor
the performance of the civilian staffing process. Specifically, USEUCOM hiring
managers will be able to determine the status of specific hiring actions by comparing
them with established time frames. Additionally, if managers have questions on the
status of a particular action, they will have the contact information they need to follow up
on that action. This would allow managers to provide accurate information to senior
leaders regarding the staffing rate and the status of hiring actions to assist in
organizational planning.

Recommendation, Management Comments, and Our
Response
We recommend that the Commander, U.S. European Command, and the Director,
U.S. Army Civilian Human Resources Agency - Europe Region, jointly establish
and publish a table showing phases in the Defense Civilian Personnel Data System
staffing process and steps in each phase, a single point of contact for the steps in
each phase of the staffing process, and time frames for the completion of each phase.

USEUCOM Comments
The Chief of Staff, USEUCOM, suggested delaying the action on our recommendation
pending the establishment of DOD and Army guidance related to the conversion of all
National Security Personnel System employees to the General Schedule pay and
classification system. He stated that changes might also result from the ongoing
combatant commands’ human resources service provider study. The Chief of Staff noted
that the managers have access to information on their hiring actions through the Civilian
Personnel Online portal, allowing them to see the status of the actions; he mentioned they
could continue to use this portal until they receive conversion guidance. Finally, the
Chief of Staff stated that, since the beginning of the audit, the command has made
changes to the staffing procedures that have improved the process. Most notably, he said
that the command now validates manpower requirements before initiating RPAs. He
stated that the changes were included in the revised civilian staffing instruction,
ECI 1401.03, issued on August 13, 2009.

CHRA-E Comments
The CHRA-E Director agreed with the recommendation. The Director stated that several
of the current phases of the hiring system are expected to change as a result of the repeal
of the National Security Personnel System, and that CPAC would review and define each
phase of the process. The Director also stated that managers could use the Civilian
Personnel Online portal to monitor their hiring actions.



                                             8

Our Response
The USEUCOM and CHRA-E comments were responsive. After receiving the
management comments, we contacted USEUCOM and CHRA-E representatives to
confirm that they would implement the recommendation after the changes to the staffing
process are made; representatives from both organizations agreed they would implement
the recommendation. We also confirmed that the Civilian Personnel Online portal is part
of DCPDS, and thus the information available to the managers is as we outlined in the
finding. We agree that the repeal of the National Security Personnel System will bring
changes to the staffing process for USEUCOM positions and that the implementation of
the recommendation should be delayed until these changes are incorporated. No
additional comments are required.




                                           9

Appendix A. Scope and Methodology
We conducted this audit from January through October 2009 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our finding and conclusion based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our finding and conclusion based on
our audit objectives.

To accomplish the objectives, we obtained, reviewed, and analyzed data from DCPDS.
We also reviewed DOD Directive 1400.25, “DOD Civilian Personnel Management
System,” November 25, 1996; DOD Manual 1400.25-M, “Civilian Personnel Manual,”
December 1996; and Army Regulation 690-200, “Civilian Personnel General Guidance
Provisions,” September 1, 1983. In addition, we interviewed USEUCOM officials from
the offices of Civilian Personnel, Manpower, and the Comptroller. We also interviewed
officials from CPAC. Finally, we reviewed the hiring of USEUCOM civilians who
began employment with the Command between October 2006 and January 2009.


Use of Computer-Processed Data
We relied on one set of computer-processed data to support the background and finding
sections of this report. The data are from DCPDS, which tracks the hiring of DOD
civilians. According to guidance from the Government Accountability Office, extensive
reliability tests were not required because the data did not materially affect the finding or
the recommendation. However, as a best practice, we tested the data and determined they
were sufficiently reliable for this report. For this review, we performed tests to detect the
presence of duplicate or anomalous data. We also conducted interviews with system
personnel to determine what controls existed over the data and access to the system.

Use of Technical Assistance
The DOD Office of Inspector General’s Quantitative Methods and Analysis Division
assisted with the audit. Staff from that division reviewed the data used in the report to
determine the timeliness of hiring actions and provided a statistical summary of the data.

Prior Coverage
No audits of the USEUCOM civilian staffing process were conducted during the last
5 years.




                                             10

Appendix B. U.S. European Command
Civilian Staffing Process
The process followed by USEUCOM and CPAC to manage the civilian hiring actions
involves input from several offices, including the office in which the position resides; the
USEUCOM Civilian Personnel, Manpower, and Comptroller offices; and CPAC. The
figure on the following page depicts the USEUCOM civilian staffing process.

Preparation of a Request for Personnel Action
The staffing process begins in USEUCOM with the organization requesting the hiring
action. This organization prepares an RPA and forwards it to Manpower. Manpower
reviews the RPA to determine whether the billet is valid and to ensure the position (1) is
funded and (2) does not duplicate duties associated with another position. Manpower
then returns the RPA to the authorizing official (AO) in the organization requesting the
hiring action. After approving the RPA, the AO forwards it to Civilian Personnel, where
the RPA is reviewed for completeness and correctness. If there are any inaccuracies,
Civilian Personnel works with the submitting organization to correct the errors. After
reviewing and correcting the RPA, Civilian Personnel forwards the RPA to the
Comptroller. The Comptroller ensures the requesting organization has the funds
available for the new position and then forwards the RPA to CPAC for classification
review and announcement processing.

Classification Review and Announcement Processing
When CPAC personnel receive the RPA from the Comptroller, they review the
classification of the position and identify the skills it requires. Additionally, CPAC
personnel work with the hiring organization to develop a list of required and desired
skills. Once the manager has approved the list of required and desired skills, CPAC
generates the vacancy announcement. The draft vacancy announcement is forwarded to
the AO for approval, and then the vacancy is announced. After the vacancy closes,
CPAC generates a referral list and transfers it to the selecting official.

Selection Process
The selecting official reviews the list. If the selecting official is not satisfied with the
referral list, he or she sends it back to CPAC and requests a new one based on alternate
criteria. Once satisfied with the referral list, the selecting official can schedule
interviews, make a selection, and select alternates if applicable. After this process is
completed, the RPA is transferred back to CPAC, where personnel send a Request for
Preliminary Information (RPI) to the prospective employee. The RPI includes
information such as whether the applicant is still interested in the position, and his or her
current salary. Once CPAC receives the RPI from the applicant, salary information is
forwarded to the selecting official.

On receipt of the salary information from CPAC, the selecting official completes the
Salary Determination Worksheet (SDW). USEUCOM policy has established the process


                                             11

for determining the salary for employees, and what level of review is required for
approval. Depending on whether the selectee is a new hire or a current employee, the
organization directors can authorize salary increases of 1 to 6 percent. Higher increases
must be approved by the Compensation Review Board or the USEUCOM Chief of Staff.
Once the selecting official completes the SDW, he or she forwards it to Civilian
Personnel and the Comptroller for review. Once this review is completed, the SDW is
scanned and sent back to CPAC.

In-Processing
After receiving the SDW from USEUCOM, CPAC issues a tentative job offer. If the
applicant decides to negotiate the salary, the process returns to the selecting official and
goes through the salary determination process again. Once the applicant accepts the job
offer, CPAC sends additional paperwork to the candidate, including forms to obtain a
passport, security clearance, and drug test. Information on the account to be used to pay
for the position is then requested from the hiring organization so that permanent change
of station orders can be prepared. When these remaining steps are completed, CPAC
issues an official job offer. This offer establishes the entrance on duty (EOD) date and
confirms salary and benefits. The last step of the staffing process is the EOD date. This
date can change based on the candidate’s circumstances. On the EOD date, the position
is considered filled.




                                             12

13

U.S. European Command Comments
 





                                      HEADQUARTERS
                           UNITED STATES EUROPEAN COMMAND
                                 Office of the Chief of Staff
                                            UNIT 30401
                                           APD AE 09131


      ECCS                                                          30 November 2009


      MEMORANDUM FOR Commander, Department of Defense, Inspector General,
      400 Army Navy Drive, Arlington, VA 222024704

      SUBJECT: U.S. European Command Civilian Staffing Process (Project No. 02009-
      DOOOJB-0109.000)


      1. We received the subject draft report and offer the following comments. The
      recent passage of the 2010 National Defense Authorization Act (NOAA) mandates
      the termination of the National Security Personnel System (NSPS) and conversion of
      all NSPS employees back to the General Schedule (GS) pay and classification
      system. This will require many changes to current DoD, Army and HQ USEUCOM
      staffing processes. Because the GS pay and classification system is govemed by
      different pay setting policy and hiring procedures , recommend we suspend all actions
      pending 000 and Army personnel implementing guidance.

      2. Additional changes may also resutt from for the combatant commands (COCOM),
      as a result of the ongoing COCOM HR Service Provider Study. Should the proposed
      table be developed at this time, major revisions will be required in the near future
      when the anticipated staffing process changes are implemented.

      3. Currently, HQ USEUCOM managers have access to the RPA tracker tool in the
      Civilian Personnel Online (CPOL) portal, allowing them to view the location of each of
      their RPAs. CHRA's status notes on each RPA are visible within the tracker and
      indicate the current status of the action (e.g., on hold pending acceptance of job offer
      or pending salary acceptance, etc.). The tracker also shows all previous history of
      each RPA from inception. In the interim period pending 000 and Army conversion
      guidance, managers can continue to use the RPA tracker tool to follow the status of
      their actions.

      4. Finally. the report reviewed hiring processes used for employees who began
      employment between Oct 06 and Jan 09. Since that time, HQ USEUCOM has
      revised its intemal procedures, most notably the process of validating manpower
ECCS
SUBJECT: U.S. European Command Civilian Staffing Process (Project No. D2009­
DOOOJB-0109.000)


requirements prior to the initiation of RPAs, which has greatly improved the process.
These changes are incorporated in the revised HQ USEUCOM Civilian Staffing
Instruction, ECI 1401 .03, dated 13 Aug 09.

5. The point of contact for this action is
Civilian Human Resources Agency - Europe Region
Comments




                                    I
                                   DEPARTMENT OF THE ARMY
                          OFFICE OF THE OEPUTY CHIEF OF STAFF FOR PERSONNEL, G·'
                      UNITED STATeS clVlU",N HUMAN RESOuRCES AGENCY, EUROPE REGION
                                               UNrr29160
                                    ,       APO AE 09100-9150

                                    I
      PECP-EUR-B                                                              1 December 2009



      MEMORANDUM FOR DEPARTMENT OF DEFENSE PRINCIPLE INSPECTOR
      GENERAL FOR AUD ITING

      SUBJECT: U.S. European Command Civilian Personnel Staffing Process (Project No.
      D2009-DOOJB-0109.000)         I
      1. In response to the subject audit, we concur with recommendation in the draft report.
      Our comments ere detailed below.

      2. The Civilian Human Resources Agency-Europe Region Stuttgart Civilian Personnel
      Advisory Center and the US European Command (USEUCOM) Civilian Personnel
      Programs Division plan to review and further define each phase of the recruitment
      process. Several key phases of the recrurtment process (e.g. posruon classification,
      salary negotiation and salary approva l) are , however , expected to change as a result of
      the repeal of the National Security Personnel System. Pending detailed review of the
      ful l extent of these changes, we continue to encourage USEUCOM managers to use the
      Personnel ActIon tracker and the defined recruitment phases available in the
      Department of Army's web-based tool, ' Civilian Personnel Online Portal.' This tool will
      aid USEUCOM managers in executing and monitoring their civilian personnel actions.

      3. We appreciate the opportunity to
          i                      comments




                                                        JWMOSELE
                                                        Regiona l Director




                                                                16
